Department of Homeland Security
   Ofﬁce of Inspector General



        DHS' Progress in Disaster Recovery 

         Planning for Information Systems





OIG-09-60                                 April 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      April 16, 2009

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS’ disaster recovery planning
for information systems. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and reviews of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


    DHS Has Made Progress in Establishing a Disaster Recovery Program, but 

        Improvements Are Needed ....................................................................................4 

    Recommendations...........................................................................................................7 

    Management Comments and OIG Analysis ...................................................................7 


    Contingency Planning for Critical DHS Systems Needs Improvement .........................8 

    Recommendation ............................................................................................................9 

    Management Comments and OIG Analysis ...................................................................9 


    DHS’ Guidance for Disaster Recovery Related Documentation Needs Improvement 10 

    Recommendations.........................................................................................................11

    Management Comments and OIG Analysis .................................................................11 


    DHS Needs to Reassess the Risks Associated with DC1 and DC2..............................12 

    Recommendations.........................................................................................................15

    Management Comments and OIG Analysis .................................................................15 


Appendices
   Appendix A:               Purpose, Scope, and Methodology .....................................................16 

   Appendix B:               Management Comments to the Draft Report .....................................18 

   Appendix C:               DHS Data Centers Migration Schedule to DC1 and DC2..................20 

   Appendix D:               Critical DHS Systems Approved to Operate in 

                             FY 2006 and FY 2007 ........................................................................21 

   Appendix E:               Major Contributors to this Report ......................................................22 

   Appendix F:               Report Distribution.............................................................................23 

Table of Contents/Abbreviations 


Abbreviations
  CIO                  Chief Information Officer
  CBP                  United States Customs and Border Protection
  DC1                  DHS Data Center in Mississippi
  DC2                  DHS Data Center in Virginia
  DHS                  Department of Homeland Security
  DHS 4300A Handbook   DHS 4300A Sensitive Systems Handbook
  FEMA                 Federal Emergency Management Agency
  FIPS Pub             Federal Information Processing Standards Publication
  FY                   Fiscal Year
  ICE                  United States Immigration and Customs Enforcement
  IT                   Information Technology
  NIST                 National Institute of Standards and Technology
  OIG                  Office of Inspector General
  OMB                  Office of Management and Budget
  SSC                  Stennis Space Center
  SP                   Special Publication
  TSA                  Transportation Security Administration
  USCG                 United States Coast Guard
  USCIS                United States Citizenship and Immigration Services
  USSS                 United States Secret Service
  US-VISIT             United States Visitor and Immigrant Status Indicator
                       Technology
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  In May 2005, we reported on deficiencies in the Department of
                  Homeland Security’s disaster recovery planning for information
                  systems. We recommended that the department allocate the funds
                  needed to implement an enterprise-wide disaster recovery program
                  for mission critical systems, require that disaster recovery
                  capabilities be included in the implementation of new systems, and
                  ensure that disaster recovery-related documentation for mission
                  critical systems be completed and conform to current government
                  standards.

                  Generally, the department has made progress in establishing an
                  enterprise-wide disaster recovery program. Specifically, the
                  department has allocated funds for this program since fiscal
                  year 2005, and by August 2008 had established two new data
                  centers. Further, the department now includes contingency
                  planning as part of the system authorization process and it has
                  issued guidance to ensure that contingency planning
                  documentation conforms to government standards.

                  While the department has strengthened its disaster recovery
                  planning, more work is needed. For example, the two new data
                  centers need interconnecting circuits and redundant hardware to
                  establish an active-active processing capability. Additionally, not
                  all critical departmental information systems have an alternate
                  processing site. Further, disaster recovery guidance does not
                  conform fully to government standards. Finally, risk assessments
                  of the data centers are outdated.

                  We are recommending that the Chief Information Officer
                  implement the necessary circuits and redundant resources at the
                  new data centers; ensure that critical departmental information
                  systems have complete contingency planning documentation; and
                  conform departmental contingency planning guidance to
                  government standards. Additionally, the department should
                  reassess data center risks whenever significant changes to the
                  system configuration have been made. The department’s response
                  is summarized and evaluated in the body of this report and
                  included, in its entirety, as Appendix B.


            DHS’ Progress in Disaster Recovery Planning for Information Systems

                                          Page 1
Background
                        The Department of Homeland Security (DHS) relies on a variety of
                        critical information technology (IT) systems and technologies to
                        support its wide-ranging missions. DHS’ IT systems also allow
                        employees to communicate internally and for the American public
                        to communicate with the department. Following a service
                        disruption or disaster, DHS must be able to recover its IT systems
                        quickly and effectively in order to continue performing these
                        mission essential functions.

                        In May 2005, we reported on deficiencies in DHS’ ability to
                        restore its IT systems.1 Specifically, we reported that DHS’ IT
                        disaster recovery sites were not prepared to prevent service
                        disruptions from potentially hindering the department’s ability to
                        perform mission essential functions. Further, we reported that the
                        inability to restore DHS’ critical IT systems following a disaster
                        could have negative effects on the performance of mission
                        essential functions. We concluded that these potential effects on
                        DHS’ mission include a disruption in passenger screening
                        operations, delays in processing grants in response to a disaster,
                        and delays in the flow of goods across United States borders.

                        In the May 2005 report, we recommended that the DHS Chief
                        Information Officer (CIO):

                             �	 Allocate the funds needed to implement an enterprise-wide
                                disaster recovery program for mission critical systems,
                             �	 Require disaster recovery capabilities to be included in the
                                planning and implementation of new systems, and
                             �	 Require that disaster recovery-related documentation for
                                mission critical systems be completed and conform to
                                current government standards.

                        In April 2006, DHS issued action plans to address these
                        recommendations.2 Specifically, the CIO would:

                        �	 Establish and maintain two operational data centers with an
                           “active-active” processing capability. Using the active-active
                           approach, each data center will be able to serve as a backup for
                           each other,

1
 Disaster Recovery Planning for DHS Information Systems Needs Improvement, OIG-05-22, May 2005.
2
 Compliance Follow-up to Audit Report – Disaster Recovery Planning for DHS Information Systems
Needs Improvement, OIG-05-22, April 6, 2006.


                  DHS’ Progress in Disaster Recovery Planning for Information Systems

                                                Page 2
      �	 Close 16 existing data centers and move the processing into
         these two new data centers. DHS IT staff would use the
         active-active processing capability of these two data centers to
         ensure each mission critical system has a complete disaster
         recovery capability, and
      �	 Require a completed and tested IT contingency plan prior to
         authorizing a system to operate.

      Additionally, in the first quarter of Fiscal Year (FY) 2006, the CIO
      provided DHS components with guidance for the development of
      contingency plans. This guidance, in the form of a template, will
      ensure that departmental IT contingency planning documentation
      conformed to government standards.




DHS’ Progress in Disaster Recovery Planning for Information Systems

                              Page 3
Results of Audit
     DHS Has Made Progress in Establishing a Disaster Recovery
     Program, but Improvements Are Needed
          DHS has taken steps to correct disaster recovery deficiencies identified in
          our May 2005 report by allocating funds and establishing two new data
          centers. However, additional work is needed to create the planned
          active-active processing capability. Specifically, additional
          telecommunications circuits, redundant equipment, and sufficient
          computer room floor space are necessary to ensure that these two data
          centers can be backup sites for each other.

                  Progress in Funding and Establishing Data Centers

                  DHS addressed our recommendation to allocate the funds needed
                  to implement an enterprise-wide disaster recovery program for
                  mission critical systems. Specifically, DHS has allocated funding
                  and established two new data centers as part of its strategy to
                  mitigate disaster recovery deficiencies. Funds for the first data
                  center, called DC1, have been appropriated every year since
                  FY 2005. Additionally, in FY 2008, DHS awarded a multi-year
                  contract not to exceed $391 million to Computer Sciences
                  Corporation to manage DC1.

                  DC1, also called the National Center for Critical Information
                  Processing and Storage, is a government owned facility at the
                  John C. Stennis Space Center (SSC) in Mississippi. DHS
                  components that have moved systems to DC1 include United
                  States Customs and Border Protection (CBP), United States
                  Immigration and Customs Enforcement (ICE), National Protection
                  and Programs Directorate, and DHS’ Management Directorate.

                  In FY 2008 DHS awarded a multi-year contract not to exceed
                  $820 million to Electronic Data Systems to operate the second data
                  center, called DC2. DC2 is a contractor owned and operated
                  facility in Clarksville, VA. While construction of DC2 continues,
                  the Transportation Security Administration (TSA) and the United
                  States Visitor and Immigrant Status Indicator
                  Technology (US-VISIT) office have started transferring IT assets
                  to this facility.




            DHS’ Progress in Disaster Recovery Planning for Information Systems

                                          Page 4
                          Lack of Connectivity between Data Centers Hinders Recovery
                          Capabilities

                          DHS has not established the necessary connectivity to ensure that
                          DC1 and DC2 can provide backup capabilities for each other.
                          Specifically, the necessary telecommunications equipment and
                          circuits are not in place to transmit data from one site to the other
                          for backup purposes. Without the necessary connectivity between
                          the two data centers, DHS might not be able to backup and restore
                          mission critical systems within users’ required time frames.

                          Redundant Equipment

                          DHS has not installed redundant hardware and software at DC1
                          and DC2 for use in recovering from a systems outage. For
                          example, while resources for Management Directorate systems are
                          installed and operating at DC1, duplicate resources are not
                          installed at DC2. Specifically, DHS has eliminated its Internet
                          gateways from locations in Missouri and Georgia and consolidated
                          them into one gateway at DC1. However, DHS has not installed
                          redundant equipment at DC2 for the Internet gateway. As a result,
                          if DC1 is not accessible, some DHS users may not have access to
                          the Internet.

                          The need for redundant equipment at DC2 is especially critical due
                          to the single points of failure that exist at DC1. For example, the
                          electrical power for DC1 comes from one sub-station and is routed
                          through one switch room. Similarly, the telecommunications
                          circuits for DC1 come from one building at SSC and are routed
                          through one telecommunications closet. These power and
                          telecommunications single points of failure increase the risk that
                          DHS systems at DC1 may not be accessible following an outage.
                          According to CIO staff, DHS is in the process of procuring the
                          necessary circuits.

                          Insufficient Computer Room Space

                          The amount of usable computer room space at DC1 is not
                          sufficient to handle the projected workload. Specifically, DHS
                          plans to migrate processing from 11 data centers to DC1.3 While
                          DHS has already moved processing from 5 of these data centers to
                          DC1, migrating 4 additional data centers will exceed the available


3
    See Appendix C: DHS Data Centers Migration Schedule to DC1 and DC2.


                    DHS’ Progress in Disaster Recovery Planning for Information Systems

                                                  Page 5
                          computer room floor space at DC1 by 2,096 square feet.4 See
                          Table 1.

                                  Table 1: DC1 Computer Room Space Allocation
                                                                         Secure
                                                                         Storage             Total
                                                     Computer           Computer           Computer
                                                    Room Space         Room Space         Room Space
                                                   (Square Feet)      (Square Feet)      (Square Feet)
                      Space already in use at
                      DC1                             11,738               816              12,554
                      Migration of United
                      States Coast Guard
                      (USCG) data center
                      from Kearneysville, WV          12,000*              320*             12,320
                      Migration of Federal
                      Emergency
                      Management Agency
                      (FEMA) data center from
                      Denton, TX                       1,120*              520*              1,640
                      Migration of United
                      States Secret Service
                      (USSS) data center from
                      Washington DC                   12,600*            1,110*             13,710
                      Migration of TSA data
                      center from Annapolis,
                      MD                               4,500*               0*               4,500

                     Total required computer
                     room space at DC1               41,958             2,766               44,724
                     Total available computer
                     room space at DC1               38,521             4,107               42,628
                     Total known
                     excess/(shortfall) in
                     computer room space
                     at DC1                          (3,437)            1,341               (2,096)
                     *Data center computer room floor space in FY 2004.

                          Additionally, migration of processing from the remaining 2 data
                          centers as well as the installation of redundant equipment to
                          provide the active-active processing with DC2 would further
                          increase the shortfall of computer room floor space at DC1. DC1
                          and DC2 can not be active-active data centers if there is
                          insufficient computer room floor space to house the redundant
                          equipment needed to support disaster recovery operations.



4
 DHS has on-going asset discovery efforts to update the 2004 floor space requirements. Similar discovery
efforts, where undertaken, have revealed less floor space usage than the 2004 data call indicated.


                   DHS’ Progress in Disaster Recovery Planning for Information Systems

                                                 Page 6
       According to Office of Management and Budget (OMB) Circular
       A-130, Management of Federal Information Resources:

            “Inevitably, there will be service interruptions. Agency plans
            should assure that there is an ability to recover and provide
            service sufficient to meet the minimal needs of users of the
            system.”

       Additionally, according to DHS 4300A Sensitive Systems
       Handbook (DHS 4300A Handbook):

            “Care must be taken to ensure systems are designed with no
            single point of failure.”

Recommendations
       We recommend that the DHS CIO:

       Recommendation 1: Provide the necessary resources to ensure
       that DC1 and DC2 have the connectivity, equipment, and computer
       room floor space to act as alternate processing sites for each other.

       Recommendation 2: Provide redundancy to eliminate reported
       power and telecommunications single points of failure at DC1.

Management Comments and OIG Analysis
       The DHS Acting CIO concurred with both recommendations.
       These recommendations will be considered resolved but open
       pending verification of all planned actions.




 DHS’ Progress in Disaster Recovery Planning for Information Systems

                               Page 7
         Contingency Planning for Critical DHS Systems Needs
         Improvement
                  DHS requires that disaster recovery capabilities be included in the
                  planning and implementation of new systems. Specifically, before
                  authorizing information systems to operate, DHS requires a completed and
                  tested IT contingency plan for system authorization. However, in
                  FY 2006 and FY 2007 DHS authorized the operation of critical systems
                  that did not have an alternate processing site and critical systems that had
                  incomplete contingency planning documents.5

                  We reviewed contingency planning information for systems whose
                  security categorization in each security objective of confidentiality,
                  integrity, and availability was categorized as high.6 During FY 2006 and
                  FY 2007, DHS authorized 27 critical systems to operate, of which 8 (30%)
                  did not have an identified alternate processing site. See Table 2.

                          Table 2: Critical DHS Information Systems without an Identified
                                             Alternate Processing Site

                            DHS                           System Name                       Alternate
                         Component                                                          Site (Y/N)
                        Management        DHS Interactive                                        N
                        Directorate
                        Management        Sunflower Asset Management System                     N
                        Directorate
                        Management        DHS Online                                            N
                        Directorate
                        Management        Stennis Data Center LAN                               N
                        Directorate
                        USCG              Shipboard Command and Control System                  N
                        US-VISIT          Automated Biometric Identification System             N
                        TSA               TSANet                                                N
                        TSA               TSA Operating Platform                                N

                  Additionally, only 4 of the 27 critical systems (15%) had contingency
                  plans that had been tested fully. Specifically, 17 (63%) of these systems
                  had only a limited contingency test, such as a table top exercise. Further,
                  the contingency plans for 6 of these systems (22%) had not been tested in
                  the last year. Without a full contingency plan test at an alternate

5
  See Appendix D, Critical DHS Systems Approved to Operate in FY 2006 and FY 2007.
6
  Federal Information Processing Standard Publication (FIPS Pub) 199, Standards for Security
Categorization of Federal Information and Information Systems, provides guidance for categorizing
information systems based on the three security objectives of confidentiality, integrity, and availability.
The security categories are low, moderate, and high. Additionally, National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-53, Recommended Security Controls for Federal
Information Systems, provides guidance for controls based on the security objectives and categories.


                     DHS’ Progress in Disaster Recovery Planning for Information Systems

                                                    Page 8
processing site, DHS critical systems might not be able to recover in a
timely fashion after an outage.

Further, 15 of these 27 critical systems (56%) did not include the required
business impact analysis with the contingency plan. A business impact
analysis is used to determine contingency requirements such as maximum
allowable outage times. For example, if the maximum allowable outage is
four hours, a recovery process would need to be designed to resume
processing within four hours at an alternate site.

According to DHS 4300A Handbook:

   “When testing is required, IT Contingency Plans shall be 

   tested/exercised annually.” 


Additionally, according to National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-53, Recommended
Security Controls for Federal Information Systems, when a system’s
availability security objective is categorized as high:

   “The organization includes a full recovery and reconstitution of the
   information system as part of contingency plan testing.”

According to NIST SP 800-34, Contingency Planning Guide for
Information Technology Systems:

   “The BIA [Business Impact Analysis] enables the Contingency
   Planning Coordinator to fully characterize the system requirements,
   processes, and interdependencies and use this information to determine
   contingency requirements and priorities.”

Recommendation
       We recommend that the DHS CIO:

       Recommendation 3: Ensure that business impact assessments are
       performed, alternate processing sites are identified, and
       contingency plans tested annually for critical DHS information
       systems.

Management Comments and OIG Analysis
       The DHS Acting CIO concurred with recommendation 3. This
       recommendation will be considered resolved but open pending
       verification of all planned actions.

 DHS’ Progress in Disaster Recovery Planning for Information Systems

                               Page 9
DHS’ Guidance for Disaster Recovery Related Documentation
Needs Improvement
     DHS addressed our previous recommendation to require that disaster
     recovery-related documentation for mission critical systems be completed
     and conform to current government standards. Specifically, the CIO
     provided guidance to DHS components for the preparation of contingency
     plans. This guidance, the DHS 4300A Handbook Attachment K, IT
     Contingency Plan Template, details the information that is to be included
     in contingency planning documentation. However, this template is
     incomplete. Specifically, the template does not include the following
     information:

        �   Backup operations plan,
        �   Written access controls policies and procedures, and
        �   Preservation of audit information.

     The addition of the above items to the template will help ensure DHS
     components will be able to develop better plans for restoring systems. For
     example, inclusion of documented access control policies and procedures
     in the contingency plan reduces the risk of unauthorized disclosure,
     modification, or destruction of the data residing in the restored systems.

     Additionally, DHS contingency planning guidance does not conform fully
     to government-wide standards. Specifically, according to NIST
     SP 800-53, if an agency has a system with a high impact for availability, it
     should have an alternate site. However, DHS has created an exception to
     this requirement. Specifically, DHS components shall not categorize a
     system as high impact for availability if it does not have an alternate site.
     According to DHS 4300A Handbook:

        “If resources for establishing an alternate site are not available or
        identified, then a system shall not be categorized as high impact for
        availability.”

     Contingency planning security controls are based on the potential impact
     to organizations or individuals should there be a loss of system
     availability. This potential impact to availability is categorized as low,
     moderate or high. For example, according to NIST SP 800-60, Volume II:
     Appendices to Guide for Mapping Types of Information and Information
     Systems to Security Categories:

        “The consequences of disruption of access to information or
        information systems associated with ensuring security of
        transportation and infrastructure networks, facilities, vehicles, and

      DHS’ Progress in Disaster Recovery Planning for Information Systems

                                   Page 10
   personnel within the United States may be severe. Also, anti-terrorism
   missions are not reliably tolerant of delays. The availability impact
   level for information systems that ensure the security of transportation
   and infrastructure networks, facilities, vehicles, and personnel within
   the United States is high.”

Recommendations
       We recommend that the DHS CIO:

       Recommendation 4: Update the contingency planning template
       to include all required contingency planning information.

       Recommendation 5: Revise the DHS 4300A Handbook to
       comply with government-wide contingency planning guidance.

Management Comments and OIG Analysis
       The DHS Acting CIO concurred with both recommendations.
       These recommendations will be considered resolved but open
       pending verification of all planned actions.




 DHS’ Progress in Disaster Recovery Planning for Information Systems

                              Page 11
DHS Needs to Reassess the Risks Associated with DC1 and DC2
     The DHS risk assessments for DC1 and DC2 are out of date and
     incomplete. Additionally, there are unmitigated threats and vulnerabilities
     at DC1 and DC2 that may impact their ability to conduct normal
     operations. DHS should re-assess the risks associated with operating these
     data centers and establish sufficient controls to mitigate unacceptable
     weaknesses.

            Risk Assessment for DC1

            DHS performed a risk assessment on DC1 in July 2006. However,
            it was not updated when the telecommunications systems were
            installed. Further, the risk assessment did not include specific
            threats and vulnerabilities that might place DHS systems at risk.
            These include:

                 �   Being located within 2 miles of a rocket test facility,
                 �   Being located in a former munitions assembly plant,
                 �   Being located 20 miles from the Gulf Coast, and
                 �   The clearance level of the facilities guards and contractors.

            For example, the DC1 risk assessment did not quantify the risk
            associated with a potential rocket engine test or explosion even
            though DC1 is located within two miles of a rocket test facility.
            See Figure 1. Specifically, the assessment did not state if the
            facility would be accessible in the event of a catastrophic rocket
            engine test failure. The assessment also did not include the risks
            associated with acoustical vibrations associated with a normal
            engine test even though the facility is within a 125,000-acre
            acoustical buffer zone.

            Additionally, the risk assessment did not address environmental
            contamination. DC1 is in a facility that once was used to construct
            howitzer shells. Risks associated with working in a former
            munitions facility, such as lead contamination or unexploded
            munitions, should be quantified to ensure the safety of staff and
            their ability to operate the facility.




      DHS’ Progress in Disaster Recovery Planning for Information Systems

                                   Page 12
                           Figure 1: DC1 is within 2 miles of SSC rocket engine test
                                                       facilities.


             DC1


Complex containing
the SSC Visitor
Center and the
single point of failure
telecommunications
building




                          Further, DC1 is located approximately 20 miles from the Gulf
                          Coast, which is vulnerable to a hurricane’s damaging winds and
                          floods. However, the risk assessment did not recommend the
                          development of action plans to prepare for potential impacts from
                          hurricanes. These impacts could include the lack of access of
                          operating personnel, flooding, and power failures.

                          There are also unmitigated vulnerabilities at DC1. For example,
                          the initial risk assessment identified the need for a perimeter fence
                          around DC1. As of December 2008, DHS still had not funded
                          installation of the fence. This perimeter fence will be especially
                          important as StenniSphere, the official SSC Visitor Center, is less
                          than a mile from DC1, and it is accessible by anyone with a valid
                          driver’s license or passport.




                   DHS’ Progress in Disaster Recovery Planning for Information Systems

                                                Page 13
      Risk and Physical Assessments for DC2

      The risk assessment for DC2 was performed in April 2008, prior to
      the final implementation of hardware and telecommunications
      systems. Additionally, the DC2 physical security assessments did
      not address the placement of two 25,000 gallon diesel fuel storage
      tanks within several feet of the building. See Figure 2. The risk
      assessment should disclose the risk of a storage tank fire either
      damaging the walls of the facility or restricting safe exit from the
      building.

      Figure 2: Diesel fuel tanks and backup generators adjacent to DC2.




      Further, the risk assessment reported that the water-based fire
      suppression system was considered adequate by the DC2 facility
      contractor. However, the risk assessment did not cite the potential
      for damage to equipment from the use of a water-based fire
      suppression system instead of a clean agent fire extinguishing
      system, such as the fire suppression system at DC1. For example,
      the water-based sprinklers are located in both the raised floor
      computer room and also in the Uninterruptible Power Supply
      battery room. Accidental discharge of the sprinklers could damage
      hardware or short out backup batteries.

      There are also unmitigated vulnerabilities at DC2. For example, a
      physical assessment and site survey of DC2 cited the risks
      associated with maintaining only one guard onsite, rather than the
      recommended minimum of two onsite guards at all times.



DHS’ Progress in Disaster Recovery Planning for Information Systems

                             Page 14
       Additionally, a survey for storing sensitive data at DC2 reported
       that the guards had inadequate clearances for this type of facility.

       According to DHS Sensitive Systems Policy Directive 4300A:

                “Components shall conduct and document risk assessments
                every three years, when high impact weaknesses are
                identified, or whenever significant changes to the system
                configuration or to the operational/threat environment have
                been made, whichever occurs first.”

Recommendations
       We recommend that the DHS CIO:

       Recommendation 6: Re-perform risk assessments at DC1 and
       DC2 and continue to do so whenever there has been a significant
       change to the system configuration or the operating environment.

       Recommendation 7: Prepare the necessary plans of actions and
       milestones to mitigate known threats and vulnerabilities associated
       with DC1 and DC2.

Management Comments and OIG Analysis

       The DHS Acting CIO concurred with both recommendations.
       These recommendations will be considered resolved but open
       pending verification of all planned actions.




 DHS’ Progress in Disaster Recovery Planning for Information Systems

                              Page 15
Appendix A
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology 

                    This is the first in a series of reports on DHS disaster recovery
                    planning. Specifically, this audit is a follow-up of our report
                    Disaster Recovery Planning for DHS Information Systems Needs
                    Improvement (OIG-05-22). Each report will address the three
                    recommendations made in the original audit, but will focus on
                    specific DHS components. This report focuses on DHS’
                    Management Directorate and its two new data centers.

                    The overall objective of this audit was to evaluate the progress
                    DHS has made in the acquisition and management of disaster
                    recovery alternate sites for the general support systems comprising
                    its network backbone. We reviewed DHS policies and procedures,
                    communications diagrams, facility surveys, prior audit reports,
                    contingency planning documentation, and wiring diagrams.
                    Auditors performed on-site inspections and interviewed key
                    personnel.

                    Our fieldwork was conducted at DHS Management Directorate
                    facilities and organizational elements in the Washington, DC
                    metropolitan area, Stennis Space Center, Mississippi, and
                    Clarksville, Virginia. We conducted this audit between June 2008
                    and December 2008.

                    We provided DHS staff with briefings and presentations
                    concerning the results of fieldwork and the information
                    summarized in this report. We conducted this performance audit
                    in accordance with generally accepted government auditing
                    standards. Those standards require that we plan and perform the
                    audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our
                    audit objectives.




              DHS’ Progress in Disaster Recovery Planning for Information Systems

                                           Page 16
Appendix A
Purpose, Scope, and Methodology


                    We appreciate the efforts by DHS management and staff to provide
                    the information and access necessary to accomplish this audit. The
                    principal Office of Inspector General (OIG) points of contact for
                    the audit are Frank Deffer, Assistant Inspector General for
                    Information Technology Audits (202) 254-4100 and Sharon
                    Huiswoud, Director, Information Systems (202) 254-5451. Major
                    OIG contributors to the audit are identified in Appendix E.




              DHS’ Progress in Disaster Recovery Planning for Information Systems

                                           Page 17
Appendix B
Management Comments to the Draft Report




             DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                          Page 18

Appendix B
Management Comments to the Draft Report




             DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                          Page 19

Appendix C
DHS Data Centers Migration Schedule to DC1 and DC2




                      Components’ Data Center                     Migrated to/Plan        Completion
                                                                   to Migrate to           Schedule
                                                                   DC1       DC2
        CBP
        National Data Center (Springfield, VA)                                 �        Q4 of FY 2010
        Disaster Recovery Facility (Undisclosed)                    �                   Q2 of FY 2008
        ACE (Tyson’s Corner, VA)                                    �                   Q3 of FY 2009
        DHS Management Directorate
        DHS/CIO (Bluemont, VA)                                      �                   Q2 of FY 2010
        DHS Ashburn Data Center (Ashburn, VA)                       �                   Q2 of FY 2008
        DHS HSDN Fair Lakes (Fairfax, VA)                                      �        Q4 of FY 2008
        DHS Stafford Data Center (Garrisonville, VA)                �                   Q4 of FY 2007
        ICE
        ICE – (Rockville, MD)                                                  �        Q4 of FY 2008
        ICE – (Dallas, TX)                                                     �        Q4 of FY 2008
        United Sates Citizenship and Immigration Services
        (USCIS)
        USCIS – DOJ (Rockville, MD)                                            �        Q1 of FY 2010
        USCIS – DOJ (Dallas, TX)                                               �        Q1 of FY 2010
        USCIS – Verizon (Manassas, VA)                                         �        Q2 of FY 2010
        US-VISIT
        US-VISIT (Rockville, MD)                                               �        Q2 of FY 2011
        US-VISIT (Dallas, TX)                                                  �        Q4 of FY 2009
        FEMA
        Information Technology Services Center (Bluemont, VA)                  �        Q4 of FY 2009
        FEMA (Denton, TX)                                           �                   Q2 of FY 2010
        TSA
        IBM St. Louis Hosting Center (Hazelwood, MO)                           �        Q4 of FY 2008
        TSA Headquarters (Arlington, VA)                                       �        Q1 of FY 2009
        Annapolis Junction Data Center (Annapolis, MD)              �                   Q2 of FY 2010
        Colorado Springs Data Center (Colorado Springs, Co)         �                   Q2 of FY 2010
        Atlantic City Data Center (Atlantic City, NJ)               �                   Q2 of FY 2011
        USCG
        Aircraft Repair and Supply Center (Elizabeth City, NJ)                 �        Q4 of FY 2010
        Coast Guard Finance Center (Chesapeake, VA)                            �        Q4 of FY 2010
        OIT Data Center (Kearneysville, WV – Continuity             �                   Q3 of FY 2009
        Solution)
        USSS
        USSS (H Street, Washington, DC)                             �                   Q3 of FY 2010
        USSS (Undisclosed)                                                     �        Q1 of FY 2011




                DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                               Page 20

Appendix D
Critical DHS Systems Approved to Operate in FY 2006 and FY 2007


                                                                     Full                           Business
     DHS                   System Name              Alternate     Contingency      Contingency      Impact
   Component                                        Site (Y/N)       Test           Test Type       Analysis
                                                                    (Y/N)                            (Y/N)
   Management      DHS Interactive                         N           N             Tabletop          N
   Directorate
   Management      Sunflower Asset Management              N            N            Tabletop           N
   Directorate     System
   Management      DHS Online                              N            N            Tabletop           Y
   Directorate
   Management      Stennis Data Center LAN                 N            N            Tabletop           N
   Directorate
   CBP             Automated Export System                 Y           N             Tabletop           Y
   CBP             NDC Mainframe System                    Y           N             Tabletop           Y
   CBP             Traveler Enforcement                    Y           N             Tabletop           N
                   Compliance System
   CBP             DHS OneNetwork                          Y           N             Tabletop           N
   CBP             Automated Targeting System              Y           N             Tabletop           Y
   USCG            CGDN Plus Tier 1                        Y           N          Three subject         N
   USCG            Fleet Logistics System                  Y           Y           Scripted Test        Y
   USCG            Naval and Electronics Supply            Y           Y           Scripted Test        Y
                   Support System
   USCG            Shipboard Command and                   N           N              Onsite            Y
                   Control System                                                 Hardware Fix
   USCG            Automated Mutual Assistance             Y           N          No test in one        Y
                   Vessel Rescue System                                                 year
   USCG            Maritime Awareness Global               Y           N          No test in one        N
                   Network                                                              year
   USCG            Marine Information for                  Y           Y           Scripted Test        Y
                   Safety and Law Enforcement
   USCG            SBU-LAN – Operations                    Y           Y          Full scale test       Y
                   Service Center
   ICE             Password Issuance and                   Y           N             Tabletop           N
                   Control System
   ICE             Security Activities Reporting           Y           N             Tabletop           N
                   System
   ICE             Student and Exchange Visitor            Y           N             Tabletop           N
                   Information System
   FEMA            DHS Texas - GSS                         Y           N             Tabletop           N
   FEMA            Agile Systems Development               Y           N             Tabletop           N
   US-VISIT        Automated Biometric                     N           N          No test in one        N
                   Identification System                                               year.
   TSA             TSANet                                  N           N             Tabletop           Y
   TSA             TSA Operating Platform                  N           N             Tabletop           Y
   TSA             TSIS Remote Access to                   Y           N             Tabletop           N
                   Classified Enclaves
   TSA             Central Information                     Y           N             Failover           N
                   Distribution System
   Note:	 These critical systems had security categorizations of “high” in each of the three security
           objectives of confidentiality, integrity, and availability.


                  DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                                Page 21

Appendix E
Major Contributors to this Report



                    Sharon Huiswoud, Director, Department of Homeland Security,
                    Information Technology Audits

                    Kevin Burke, Audit Manager, Department of Homeland Security,
                    Information Technology Audits

                    Domingo Alvarez, Senior Auditor, Department of Homeland
                    Security, Information Technology Audits

                    Matthew Worner, Program Analyst, Department of Homeland
                    Security, Information Technology Audits

                    Maria Rodriguez, Referencer




              DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                           Page 22

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Under Secretary, Management
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Chief Information Officer (CIO), DHS
                      Chief Privacy Officer
                      Deputy CIO, DHS
                      Chief Information Security Officer, DHS
                      DHS CIO Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              DHS’ Progress in Disaster Recovery Planning for Information Systems 


                                           Page 23

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
